                         OFFICE OF INSPECTOR GENERAL



 Testimony of Joseph Farinella, Acting Assistant Inspector General for
                                Audit
              U.S. Agency for International Development

           Submitted to the Committee on Government Reform
        Subcommittee on National Security, Emerging Threats, and
                         International Relations
                      U.S. House of Representatives

             Iraq: Perceptions, Realities and Cost to Complete

                              October 18, 2005



Mr. Chairman, Committee members:

        Thank you for the opportunity to provide testimony on my office’s

program to review USAID operations in Iraq. My testimony will focus on

Office of Inspector General (OIG) oversight relating to reconstruction and

governance. My testimony will not focus on security since USAID does not

work in that area. However, I will mention the impact of security on our

work.

        The USAID OIG’s regional office in Baghdad performs audits and

investigations of USAID activities in Iraq. Our Washington headquarters
staff also provides support to our audits and investigations of USAID’s Iraq

activities.

       Our Baghdad office consists of 7 U.S. Direct hire auditors, one

investigator and one local administrative support person. We conduct

performance audits and investigations with our direct hire staff and use the

services of the Defense Contract Audit Agency (DCAA) to conduct financial

audits of USAID activities. We then issue the DCAA audits to USAID with

OIG recommendations for corrective action. In addition to our audit and

investigation services, we are providing fraud awareness training to USAID

staff and its contractors on a regular basis. This training helps those

implementing our programs to more easily recognize indications of fraud

and to know what to do if they suspect illegal behavior.

       Andrew Natsios, USAID’s Administrator, is very supportive of OIG’s

field presence in Iraq and we appreciate the time and attention USAID’s

Senior Management pays to our work. We continue to work with USAID to

help ensure that its programs are managed efficiently and effectively to yield

results; and that taxpayer funds are well spent.

       In Iraq, USAID has obligated about $2.5 billion for reconstruction

activities and about $750 million for governance.




                                       2
      As of September 30, 2005, we have closed 17 investigations and have

2 open cases involving Iraq activities. The open cases involve allegations

that USAID contractors either submitted false or fraudulent costs associated

with their work in Iraq or solicited kickbacks in exchange for awarding

subcontracts. The closed investigations included similar allegations as well

as employee integrity issues. These investigations resulted in administrative

actions being taken by either USAID and/or its contractors.

      On the audit side, we have issued 26 performance audits and reviews

on USAID activities in Iraq. In addition, we have issued 65 financial audits

conducted by DCAA. Much of this work relates to reconstruction in some

form or another—everything from reviews to determine if USAID followed

applicable laws and regulations in awarding reconstruction contracts to

audits of whether USAID achieved intended outputs in reconstructing

schools, electrical, water and sanitation facilities.

      While security concerns have often prevented us from performing as

many site visits as we would normally prefer, we have been able to visit

project reconstruction sites in the course of our audits. When we have not

been able to travel due to security, we have performed alternate tests to

accomplish our audit objectives including increasing our document review

and testing of program and financial related material. We also utilize



                                         3
photos, reports, and conduct interviews with U.S. Army Corp of Engineers

and others who visit and often live at project sites. We obtain and review

photos and reports, including site visit reports of subcontractors, contractors,

and USAID staff. We have also obtained written statements from recipients,

including local government officials, confirming that they have received and

accepted finished projects and goods. In some cases, results do not require

site visits. For example, if the planned result is the development of an

information system or policy, we verify that the result is achieved by

reviewing the policy or information system and documentation to determine

if what was planned was actually completed.

      I will now discuss some of the audits and recommendations we have

made in the areas of contracting, education, infrastructure, electrical power,

and water and sanitation.

      Our May 2004 summary audit report on the contract award process

found that USAID generally complied with federal regulations in the

awarding of contracts using other than full and open competition. However,

we recommended improvements in documenting the award process and

preparing illustrative budgets and cost proposals so that bidders could be

more readily compared.




                                       4
      Our March 2004 education audit found that for eight reported results

we reviewed, six were under-reported. Thus, in fact, more was

accomplished than USAID had reported. For example, numbers of

textbooks printed and primary teacher kits delivered were under-reported.

However, the number of schools rehabilitated was over-reported:

specifically, while USAID had reported that 1500 schools had been

rehabilitated, we were able to verify that only 1356 schools (a difference of

about 10 percent) had been. We recommended that USAID develop

verification procedures to improve the accuracy of the results it reports.

      Our June 2004 infrastructure audit found that 64 of the 72 (89 percent)

infrastructure projects we reviewed were on schedule to achieve planned

outputs at that time, such as a dredging project, a bridge bypass, satellite and

wireless telecommunications projects, a water pumping station and a sewage

treatment plant. For the eight activities that were behind schedule, we found

that USAID was taking steps to resolve performance problems. We did,

however, make four recommendations to improve project management, such

as ensuring that environmental reviews were conducted and that specific job

orders were prepared.

      Our June 2005 Electrical Power Sector audit found that 15 of 22 (68

percent) power sector projects were achieving intended outputs. The



                                       5
remaining projects were not. For example, a $381 million project to develop

a new power generating facility using natural gas was cancelled and funds

reprogrammed into other areas. The underlying reasons behind delays and

cancellations included open hostilities, deteriorating security, and a lack of

host government cooperation. We recommended that steps be taken to

ensure that newly refurbished infrastructure is properly operated and

maintained after being turned over to the Iraqis.

      Lastly, our June 2005 Water and Sanitation audit found that 30 of 34

(88 percent) water and sanitation projects were achieving intended outputs.

For example, the Sweet Water Canal project in Basrah, Iraq has improved

the quality of the water being delivered to about 1.8 million Iraqis.

However, four projects were not achieving intended outputs primarily due to

ownership issues and security concerns. As in the Power Sector audit, we

found barriers to capacity-building, including a lack of skilled local

personnel. Nevertheless, for water and sanitation projects, USAID was

taking steps to address this with additional operational and maintenance

support and training.

      We see two major challenges regarding USAID’s future

reconstruction efforts. The first—lack of security—is endemic and largely

outside of USAID’s control. The second challenge—and one USAID can do



                                       6
something about—is to help ensure sustainability. The problems involved in

doing so are numerous and complex. Our Power Sector audit recommended

that USAID needs to develop a multi-year strategy to strengthen the Iraqi

Ministry of Electricity’s capacity to ensure the proper operation and

maintenance of a rebuilt power sector. This strategy should address

adhering to prescribed maintenance and operational systems, developing

plant-level accountability, maintaining inventory systems, and developing a

rational fuel strategy.

      Our continuing oversight of USAID infrastructure activities includes

an audit of USAID’s Telecommunications Activities in fiscal year 2006.

We are also conducting additional audit work on USAID’s basic education

activities which we will report on before the end of this calendar year. This

audit is examining progress toward the achievement of outputs such as

rehabilitating schools, capacity building within the Iraqi Ministry of

Education and teacher training.

      To date, two of our audits have addressed, at least in part, USAID

governance activities.

      First, our September 2004 audit of USAID’s Economic Reform

Program determined that only 10 of the 38 planned activities had been

completed—and another 6 were cancelled. Completed activities included



                                       7
drafting 12 commercial laws, developing an intergovernmental policy

framework, and establishing a government-wide information technology

strategy. Regarding activities not completed, the contractors’ ability to

implement them and USAID’s ability to monitor were severely restricted

due to hostilities in Iraq. Security costs were also much higher than

anticipated, rising from $894,000 in the contractor’s original proposal to a

later estimate of $37 million, which represented 49 percent of total contract

costs. In turn, these conditions and increased costs led to the cancellation of

some activities and delays in others. To improve monitoring, we

recommended that USAID improve record management procedures and

contractor reporting requirements.

      Second, our January 2005 Community Action Program audit found

that 98 percent of intended outputs were achieved, including citizen

participation in their own governance, inter-community cooperation, local

government cooperation, generation of local employment, and consideration

of environmental issues. We did, however, make one recommendation for

USAID to develop and implement a plan of action to improve the reliability

of the data it collects on each project, such as the number of beneficiaries

reached.




                                       8
      Future challenges in the area of governance do not differ significantly

from those encountered by USAID in any other field. Continuing its work

with local community organizations and all levels of the Iraqi government

will depend on the support USAID and it implementers receive from their

Iraqi counterparts as well as the security situation on the ground.

      We plan to continue OIG oversight of programs in this area and have

included an audit of USAID’s Local Governance activities in our fiscal year

2006 audit plan to determine if the program is achieving objectives to (1)

provide technical and other assistance to strengthen local entities and (2)

establish and strengthen the legal framework for a coordinated democratic

local governance system.

      Again, thank you for the opportunity to testify today. All of the audit

reports that I have mentioned are available for viewing on our website. I am

happy to respond to any questions you may have.




                                       9
